No. 19-46
In the

Supreme Court of the United States
United States Patent
and Trademark Office, et al.,
Petitioners,
v.
Booking.com B.V.,
Respondent.

On Writ of Certiorari to the United States
Court of A ppeals for the Fourth Circuit

BRIEF OF TRADEMARK SCHOLARS AS AMICI
CURIAE IN SUPPORT OF NEITHER PARTY

Rebecca Tushnet
Counsel of Record
Harvard Law School
1575 Massachusetts Avenue
Cambridge, MA 02138
(703) 593-6759
rtushnet@law.harvard.edu
Counsel for Amici Curiae

293471

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . .  iii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I.

Registration Presents Many Variations;
.com Is an Unusual and Limited Scenario  . . . . . 4
a.

Many Claimed Trademarks Involve
Unregistrable and Unprotectable
Matter . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

b.

Where a Mark Contains Unprotectable
Matter, Courts Must Be Attentive
to the Scope of Rights . . . . . . . . . . . . . . . . . . 8

c.

The .com Situation Implicates Special
Concerns Relating to Competition . . . . . . . 11
i.

A Top-Level Domain Performs a
Practical Function . . . . . . . . . . . . . . . . .11

ii. The Practical Exclusivity of a
Domain Name Enhances Concerns
About Scope . . . . . . . . . . . . . . . . . . . . . . 13

ii
Table of Contents
Page
II. Whatever Rule This Court Adopts Should
Not Rely on the De Facto Secondary Meaning
Possessed by Domain Names . . . . . . . . . . . . . . . 15
a.

The General Rule That Distinguishes
De Facto Secondary Meaning From
De Ju re Seconda r y Mea n i ng is
Important to the Overall Functioning of
the Trademark System . . . . . . . . . . . . . . . . 15

b.

T he Di f ference Bet ween De
Fa c t o S econda r y Mea n i ng A nd
De Ju re S econda r y Mea n i ng
Ca n b e Esp e c i a l ly D i f f ic u lt t o
Evaluate Using Surveys, Including
the One Offered by Booking.Com  . . . . . . . 18

III. Unfair Competition Remains an Alternative
to Trademark Protection Where De Facto
Secondary Meaning Exists . . . . . . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Appendix A: Signatories . . . . . . . . . . . . . . . . . . . . . . . . . 1a

iii
TABLE OF CITED AUTHORITIES
Page
CASES
Abercrombie & Fitch Co. v. Hunting World, Inc.,
537 F.2d 4 (2d Cir. 1976) . . . . . . . . . . . . . . . . . . . . . . . 18
America Online, Inc. v. AT&T Corp.,
243 F.3d 812 (4th Cir. 2001) . . . . . . . . . . . . . . . . . 12, 15
Application of Deister Concentrator Co.,
289 F.2d 496 (C.C.P.A. 1961)  . . . . . . . . . . . . . . . . . 2, 16
Banff, Ltd. v. Federated Dep’t Stores, Inc.,
841 F.2d 486 (2d Cir. 1988) . . . . . . . . . . . . . . . . . . . . . . 6
BellSouth Corp. v. White Directory Publishers, Inc.,
42 F. Supp. 2d 598 (M.D.N.C. 1999)  . . . . . . . . . . . . . 25
Belmora, LLC. v. Bayer Consumer Care AG,
819 F.3d 697 (4th Cir. 2016)  . . . . . . . . . . . . . . . . . . . . 24
Blinded Veterans Ass’n v.
Blinded American Veterans Foundation,
872 F.2d 1035 (D.C. Cir. 1989) (Ginsburg, J.) . . passim
Chum Ltd. v. Lisowski,
198 F. Supp. 2d 530 (S.D.N.Y. 2002 . . . . . . . . . . . . . . . 6
Duo-ProSS Meditech Corp. v. Inviro Med.
Devices, Ltd.,
695 F.3d 1247 (Fed. Cir. 2012) . . . . . . . . . . . . . . . . . . . 5

iv
Cited Authorities
Page
Estate of P.D. Beckwith, Inc. v.
Comm’r of Patents,
252 U.S. 538 (1920) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Georgia-Pacific Consumer Products LP v.
Kimberly-Clark Corp.,
647 F.3d 723 (7th Cir. 2011) . . . . . . . . . . . . . . . . . . . . 12
Gruner+Jahr USA Publ’g v. Meredith Corp.,
991 F.2d 1072 (2d Cir. 1993) . . . . . . . . . . . . . . . . . . . . . 8
Home Builders Ass’n of Greater St. Louis v.
L & L Exhibition Mgmt. Inc.,
226 F.3d 944 (8th Cir. 2000) . . . . . . . . . . . . . . . . . . . . 24
In re Am. Fertility Soc’y,
188 F.3d 1341 (Fed. Cir. 1999) . . . . . . . . . . . . . . . . . . . 7
In re Capri Macaroni Corp.,
173 U.S.P.Q. 630 (T.T.A.B. 1972) . . . . . . . . . . . . . . . . 13
In re Gould Paper Corp.,
834 F.2d 1017 (Fed. Cir. 1987) . . . . . . . . . . . . . . . . . . . 7
In re Grande Cheese Co.,
2 U.S.P.Q.2d 1447 (T.T.A.B. 1986) . . . . . . . . . . . . . . . . 5
In re Jakob Demmer Kg,
219 U.S.P.Q. 1199, 1983 WL 50191 (T.T.A.B. 1983) . . 6

v
Cited Authorities
Page
In re Lighting Systems, Inc.,
212 U.S.P.Q. 313, 1981 WL 40452 (T.T.A.B. 1981) . . 13
In re Miller Brewing Co.,
226, U.S.P.Q. 666 (T.T.A.B. 1985) . . . . . . . . . . . . . . 4, 8
In re Northland Organic Foods Corp.,
2008 WL 4674565 (T.T.A.B. 2008), aff’d,
337 Fed. App’x. 878 (Fed. Cir. 2009) . . . . . . . . . . . . . . 6
In re Pingel Enterprise Inc.,
46 U.S.P.Q.2d 1811, 1998 WL 320157
(T.T.A.B. 1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
In Re Wm. B. Coleman Co., Inc,
93 U.S.P.Q.2d 2019 (T.T.A.B. 2010) . . . . . . . . . . . . . . . 6
Kate Spade LLC v. Saturdays Surf LLC,
950 F. Supp. 2d 639 (S.D.N.Y. 2013)  . . . . . . . . . . . . . 20
Kellogg Co. v. National Biscuit Co.,
305 U.S. 111 (1938)  . . . . . . . . . . . . . . . . . . . . . . . passim
Kelly-Brown v. Winfrey,
659 F. App’x 55 (2d Cir. 2016)  . . . . . . . . . . . . . . . . . . 14
KP Permanent Make-Up, Inc. v.
Lasting Impression I, Inc.,
408 F.3d 596, 605 (9th Cir. 2005) . . . . . . . . . . . . . . . . 14

vi
Cited Authorities
Page
KP Permanent Make-Up, Inc. v.
Lasting Impression I, Inc.,
543 U.S. 111 (2004) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Liquid Controls Corp. v. Liquid Control Corp.,
802 F.2d 934, 940 . . . . . . . . . . . . . . . . . . . . . . . . . . 23, 25
Miller Brewing Co. v.
Joseph Schlitz Brewing Co.,
605 F.2d 990 (7th Cir. 1979) . . . . . . . . . . . . . . . . . 20, 25
Mil-Mar Shoe Co., Inc. v. Shonac Corp.,
75 F.3d 1153 (7th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 7
Real Foods Pty Ltd. v.
Frito-Lay North America, Inc.,
906 F.3d 965 (Fed. Cir. 2018) . . . . . . . . . . . . . . . . . . .  17
Roselux Chemical Co. v.
Parsons Ammonia Co.,
299 F.2d 855 (C.C.P.A. 1962) . . . . . . . . . . . . . . . . . . . 18
Sheetz of Delaware, Inc. v.
Doctors Associates Inc.,
108 U.S.P.Q.2d 1341 (T.T.A.B. 2013) . . . . . . . . . . . . . 18
Singer Mfg. Co. v. June Mfg. Co.,
163 U.S. 169 (1896)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Star Industries, Inc. v. Bacardi & Co. Ltd,
412 F.3d 373 (2d Cir. 2005) . . . . . . . . . . . . . . . . . . . . . . 4

vii
Cited Authorities
Page
Sweats Fashions, Inc. v. Pannill Knitting Co.,
833 F.2d 1560 (Fed. Cir. 1987) . . . . . . . . . . . . . . . . . . . 4
Textron Inc. v. Pilling Chain Co., Inc.,
175 U.S.P.Q. 621, 1972 WL 17819 (T.T.A.B. 1972) . . 13
Two Pesos, Inc. v. Taco Cabana, Inc.,
505 U.S. 763 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
W.T. Rogers, Co. v. Keene,
778 F.2d 334 (7th Cir. 1985) . . . . . . . . . . . . . . . . . . . . 12
Wal-Mart Stores, Inc. v. Samara Bros., Inc.,
529 U.S. 205 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Weiss Noodle Co. v.
Golden Cracknel & Specialty Co.,
290 F.2d 845 (C.C.P.A. 1961)  . . . . . . . . . . . . . . . . . . . 18
STATUTES
15 U.S.C. § 1124  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
15 U.S.C. § 1125(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
15 U.S.C. § 1125(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Sup. Ct. R. 37.6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

viii
Cited Authorities
Page
OTHER AUTHORITIES
L o u i s A l t m a n , 3 C a ll m a n n o n U n fa ir
Competition, T rademarks and Monopolies
(4th ed. 2019) § 21:38 . . . . . . . . . . . . . . . . . . . . . . . . . 6, 9
Caitlin P. Canahai & Mark P. McKenna, The
Ca se Again s t Pr o d u c t Co nf i g ur a ti o n
Trade Dress (available at https://ssrn.com/
abstract=3336366) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Richard Craswell, “Compared to What?”: The
Use of Control Ads in Deceptive Advertising
Litigation, 65 A ntitrust L.J. 757 (1997) . . . . . . . . . 20
Sha r i S. Diamond, Control Foundations:
Rationales and Approaches, in Trademark
an d Deceptive Adver ti sin g Sur veys
(Shari S. Diamond & Jerre Swann eds., 2012) . . . . 20
Shari Seidman Diamond, Reference Guide
o n Sur vey Research , in Reference
Ma n u a l O n Sc i e n tif i c Ev i d e n c e
(Federal Judicial Center 2d ed. 2000)  . . . . . . . . . 21
W i l l i a m T. G a l l a g h e r, T r a d e m a r k a n d
Copyright Enforcement in the Shadow of
IP Law, 28 Santa Clara Computer & High
	Tech. L.J. 453, 487 (2012)  . . . . . . . . . . . . . . . . . . . . . 10

ix
Cited Authorities
Page
Leah Chan Grinvald, Policing the Cease-andDesist Letter, 49 U.S.F. L. Rev. 409 (2015)  . . . . . . . 10
Homoglyph Attack Generator, I rongeek .com ,
https://www.irongeek.com/homoglyph-attackgenerator.php?encoded=xn--bkin-37b01soza.
xn--om-vfc&decode=%3C%3C+Decode . . . . . . . . . 21
I D N Ho m o g r a p h A t t a c k , W i k i p e d i a ,
h t t p s : / / e n .w i k i p e d i a . o r g / w i k i / I D N _
homograph_attack  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
William M. Landes and Richard A. Posner,
T h e Ec o n o m i c s o f T r a d e m a r k L a w,
78 Trademark Reporter 267, 290–97 (1988) . . . . . . 12
Mark A. Lemley & Mark McKenna, Irrelevant
Confusion, 62 Stan. L. Rev. 413 (2010)  . . . . . . . . . . 23
Mark A. Lemley & Mark P. McKenna, Scope,
57 Wm. & Mary L. Rev. 2197 (2016)  . . . . . . . . . . . . 8, 9
G l y n n S . L u n n e y, J r. , T r a d e m a r k ’ s
Judicial De-Evolution: Why Courts Get
Tr a d e m ark Ca ses Wr o n g Repea t ed ly,
106 Cal. L. Rev. 1195, 1208–1213 (2018)  . . . . . . . . . 23
2 J. T h o m a s M c C a r t h y , M c C a r t h y o n
T r a d e m a r k s a n d U n fa ir C o m p e t i t i o n
§ 12:39 (5th ed. 2019) . . . . . . . . . . . . . . . . . . . . . . passim

x
Cited Authorities
Page
William McGeveran & Mark P. McKenna,
Conf usion Isn’t Ever ything, 8 9 N o t r e
Dame L. Rev. 253 (2013) . . . . . . . . . . . . . . . . . . . . . . . 14
Mark P. McKenna, Property and Equity in
Trademark Law, 23 M arq . I ntell . P rop.
L. R ev. (forthcoming 2020) (available at
https://ssrn.com/abstract=3502613) . . . . . . . . . . . . . 22
M a r k P. M c K e n n a , T h e N o r m a t i v e
Fo u n d a ti o n s of Tr a d e m a r k L a w,
82 Notre Dame L. Rev. 1839 (2007) . . . . . . . . . . . . . 23
Kenneth Port, Trademark Extor tion: The
End of Trademark Law, 65 Wash. & Lee L.
Rev. 585 (2008)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Rebecca Tushnet, Registering Disagreement:
Registration In Modern American Trademark
Law, 130 Harv. L. Rev. 867, 872 (2017)  . . . . . . . . . . . 9
WIPO Guide to the Uniform Domain Name
Dispute Resolution Policy (UDRP), World
I n t ell e c t ua l P r o p er t y O r g a n i z a t ion ,
https://www.wipo.int/amc/en/domains/guide/  . . . . . 23

1
INTEREST OF THE AMICI CURIAE
This brief is filed on behalf of the undersigned law
professors identified in Appendix A.1 Amici are scholars
whose research and teaching focus includes trademark
law. 2 Amici have no direct interest in the outcome of this
litigation.
Summary of the Argument
Amici take no position on whether BOOKING.COM is
generic, but write to encourage the Court to be cautious
in resolving this case, which involves a generic term
combined with a common top-level domain name identifier
(.com). Trademark applications raise almost infinitely
varied scenarios, including generic terms combined with
other elements, and the top-level domain name identifier
has some specific features that make it analogous to
functional matter. Whatever rule the Court adopts should
be highly attentive to the risks to competition of overassertion of registered marks that are largely or entirely
comprised of generic elements. Because courts deciding
infringement cases are often unfamiliar with the context
of a trademark registration, they may miss limitations
on the scope of the registered mark that the Trademark
Office believed existed and, as a result, enforce broader
1. Pursuant to Rule 37.6, Amici affirm that no counsel for a
party authored this brief in whole or in part and that no person
other than Amici and their counsel made a monetary contribution
to its preparation or submission. The parties have consented to
the filing.
2. Amici’s institutional affiliations are provided only for
purposes of identification.

2
rights than the registrants should actually have. Ordinary
businesses receiving cease and desist letters are even
more unlikely to have the expertise to understand the
limits on a registration. This practical reality should
guide the Court’s standards for registrations with generic
components.
Relatedly, the Court should reaffirm the basic
principle that “de facto secondary meaning” does not give
rise to protectability as a trademark. Courts have long
distinguished between “de facto secondary meaning”
and secondary meaning “to which courts will attach legal
consequences.” Application of Deister Concentrator Co.,
289 F.2d 496, 503 (C.C.P.A. 1961). De facto secondary
meaning refers to an association between a generic term
and a particular producer that is usually the result of an
extended period of market dominance, whether achieved
through advertising or through lack of competition. For
example, in Kellogg, consumers may have associated the
generic term “shredded wheat” with the National Biscuit
Company merely because that company was long the
only producer of shredded wheat, not because consumers
believed any “shredded wheat” product came from the
National Biscuit Company. Kellogg Co. v. National
Biscuit Co., 305 U.S. 111, 118 (1938) (holding that there
was “no basis here for applying the doctrine of secondary
meaning” where the evidence showed only that, due to a
long period of exclusive production, “many people have
come to associate the product, and as a consequence
the name by which the product is generally known, with
the plaintiff’s factory”). Because of the need to protect
potential and future competition, a generic term cannot
be appropriated as a trademark even if it has de facto
secondary meaning. Id.; see also Deister, 289 F.2d at 503

3
(“[T]he courts will not support exclusive rights in any word
or shape which, in their opinion, the public has the right
to use in the absence of patent or copyright protection.”).
The practical exclusivity afforded by domain name
registration means that there may often be de facto
secondary meaning in domain names, which can be
difficult to distinguish from true trademark secondary
meaning. This easily elided distinction affects how the
Court should evaluate Booking.com’s survey, which
purports to show secondary meaning.
But the fact that de facto secondary meaning does not
lead to trademark status does not mean it is irrelevant
to the law. Even when a term is not protectable as a
trademark, narrower unfair competition remedies
may be available to prevent true passing off. As this
Court explained in Kellogg, when a term is generic or
a product shape is functional, neither can be protected
as a trademark and others may not be enjoined from
competing using the term or shape. Kellogg, 305 U.S at
116–17. Those competitors, however, may be required to
distinguish themselves in the market by adding identifiers
or otherwise differentiating their use, if the competitors’
use might deceive consumers. Id. at 122; Blinded Veterans
Ass’n v. Blinded American Veterans Foundation, 872
F.2d 1035, 1043 (D.C. Cir. 1989) (Ginsburg, J.). Thus, a rule
that strongly protects competition by denying registration
to generic terms does not leave consumers exposed to
clever bad actors.

4
ARgUMENT
I.

Registration Presents Many Variations; .com Is an
Unusual and Limited Scenario
a.

Many Claimed T radema rk s Involve
Unregistrable and Unprotectable Matter

The question presented is this case is a narrow
one—whether the addition of the .com top-level domain
to an otherwise generic term can transform the term
into a potentially registrable trademark. Although the
precise issue is narrow, it is an example of a broader
pattern in which applicants for trademark registration
add other matter to a descriptive or generic term and
claim that the resulting symbol as a whole is not merely
descriptive or generic. Word marks can be stylized, for
example, and in those cases the stylization may—or may
not—be enough to make an otherwise non-distinctive
term protectable. In Star Industries, Inc. v. Bacardi &
Co. Ltd., the court found Star’s “O” design for orangeflavored vodka sufficiently stylized to be protectable
because “[t]he ‘O’ was rendered as a vertical oval, with the
outline of the ‘O’ slightly wider along the sides (about one
quarter inch thick) and narrowing at the top and bottom
(about one eighth inch thick); the outline of the ‘O’ [was]
colored orange and decorated with two thin gold lines,
one bordering the inside and one bordering the outside
of the outline.” 412 F.3d 373, 383 (2d Cir. 2005). See also
In re Miller Brewing Co., 226, U.S.P.Q. 666 (t.t.a.B.
1985) (holding that the genericness of the word “lite” did
unprotectable); Sweats
not make the stylized mark
Fashions, Inc. v. Pannill Knitting Co., 833 F.2d 1560 (Fed.
protectable on
Cir. 1987) (fi nding the logo

5
account of design elements, despite use of the generic
word “sweats”). 3
By contrast, the Trademark Trial and Appeal Board
found this stylization of “mozzarella” insufficient to
distinguish it from the generic word itself:

In re Grande Cheese Co., 2 U.S.P.Q.2d 1447, 1449 (T.T.A.B.
1986) (“We believe that whatever impact the style of the
lettering may have is lost in the significance which the
‘marks’ have as highly descriptive or generic notations and
we believe that the ‘marks,’ considered in their entireties,
create only a single commercial impression, that is, that
of a highly descriptive or generic notation.”).
The same concept applies with respect to generic terms
that are modified not by stylization but by other words.
It is black-letter trademark law that, when determining
distinctiveness, composite marks are to be considered as
a whole and not dissected into their constituent parts. See,
e.g., Estate of P.D. Beckwith, Inc. v. Comm’r of Patents,
252 U.S. 538, 545–46 (1920); DuoProSS Meditech Corp. v.
Inviro Med. Devices, Ltd., 695 F.3d 1247, 1252 (Fed. Cir.
2012); Blinded Veterans, 872 F.2d at 1041. Thus, adding
words to an otherwise generic term might in some cases
3. Stylization is also frequently the basis on which the
Trademark Office distinguishes one mark from another that
consists of the same words in standard characters. So, for example,
Coca-Cola owns federal registrations of COCA-COLA (Reg. No.
238,145) and the stylized
(Reg. No. 238,146), both for
“beverages and syrups for the manufacture of such beverages.”

6
make the mark as a whole inherently distinctive or capable
of acquired distinctiveness (not generic) notwithstanding
the inclusion of generic words. See Banff, Ltd. v. Federated
Dep’t Stores, Inc., 841 F.2d 486, 491 (2d Cir. 1988)
(emphasizing the “long-standing view that the nongeneric
components of a mark must be compared in the context of
the overall composite mark”).
In considering whether additional matter can render
generic terms protectable, however, not all matter is
equal. Courts often have maintained, for example, that
verbal elements of a mark predominate over stylization
and graphic elements, such that the additional matter has
no effect on consumers’ perception of the composite. See,
e.g., Louis A ltman, 3 Callmann on Unfair Competition,
T rademarks and Monopolies (4th ed. 2019) § 21:38
[hereinafter Callmann] (“The general rule is that words
dominate over graphics.”); Chum Ltd. v. Lisowski, 198
F. Supp. 2d 530, 538 (S.D.N.Y. 2002) (different logos not
relevant for TV programs); In re Northland Organic
Foods Corp., 2008 WL 4674565 (T.T.A.B. 2008), aff’d, 337
Fed. App’x. 878 (Fed. Cir. 2009) (similar words dominate
over different designs); In re Jakob Demmer Kg, 219
U.S.P.Q. 1199, 1983 WL 50191 (T.T.A.B. 1983) (different
design marks with identical verbal matter are dominated
by the words). Likewise, generic words like “company”
add nothing to a mark’s commercial impression. See, e.g.,
2 J. Thomas McCarthy, McCarthy on Trademarks and
Unfair Competition § 12:39 (5th ed. 2019) [hereinafter
McCarthy]; In Re Wm. B. Coleman Co., Inc, 93 U.S.P.Q.2d
2019, 2027 (T.T.A.B. 2010) (“[T]he term ‘company’ is
simply a designation for a type of entity without sourceidentifying capability.”).

7
When a composite mark is comprised only of generic
terms, courts assess distinctiveness by asking whether
the whole creates a commercial impression that is more
than the sum of its parts, in which case it may be capable
of serving as a trademark, or whether the whole is simply
a sequence of generic elements each with its generic
meaning, in which case it cannot serve as a trademark.
See In re Am. Fertility Soc’y, 188 F.3d 1341, 1348 (Fed.
Cir. 1999) (holding that the Trademark Office erred in
finding the phrase SOCIETY FOR REPRODUCTIVE
MEDICINE generic when it only considered the
genericness of each individual component without
considering the meaning of the composite); Mil-Mar Shoe
Co., Inc. v. Shonac Corp., 75 F.3d 1153, 1161 (7th Cir. 1996)
(finding WAREHOUSE SHOES generic because “[its]
generic components produce[d] a generic composite and
signif[ied] nothing more than a warehouse-type store that
sells shoes”); In re Gould Paper Corp., 834 F.2d 1017, 1018
(Fed. Cir. 1987) (finding SCREENWIPE generic because
the combination of the generic terms “screen” and “wipe”
did not render the mark unique or incongruous).
Because of the va r iety of ma rks cont a i n i ng
unprotectable matter and the need for competitors to
remain free to use unprotectable matter, the Court
should require trademark claimants to clearly identify
what makes their claimed marks distinctive. The Court’s
holding should also make clear that composite marks are
not inherently more than the sum of their parts.

8
b.

Where a Mark Contains Unprotectable Matter,
Courts Must Be Attentive to the Scope of
Rights

Identifying unprotectable elements in otherwise
protectable marks is critical in order to identify the proper
scope of the rights conferred by trademark law. The
protectability of marks containing unprotectable matter is
predicated on the contribution of the additional matter to a
distinctive commercial impression—whether that be color,
stylization, additional words, or images. The protection
afforded composite marks should therefore be narrow and
should discount similarity of unprotectable components.
See, e.g., In re Miller Brewing Co., 226 U.S.P.Q. at 670 (“It
should be emphasized however, that the rights represented
by this registration will be extremely narrow, residing
solely in applicant’s particular display of the word ‘LITE’,
without any rights in the word ‘LITE’ per se, so that the
registration could be used as a basis for precluding the use
and/or registration by another of ‘LITE’ for the same or
similar goods only if the third-party use is in the same or
a confusingly similar style of lettering.”); cf. Gruner+Jahr
USA Publ’g v. Meredith Corp., 991 F.2d 1072 (2d Cir. 1993)
(finding plaintiff’s registered stylized mark for descriptive
term “Parents” had secondary meaning limited to its
typeface and placement on magazine cover; not infringed
by competing magazine “Parents Digest”). When scope
is not properly policed, parties are able to bootstrap
registration into anticompetitive protection for a term
that is useful or even necessary to others to compete. See
Mark A. Lemley & Mark P. McKenna, Scope, 57 Wm. &
M ary L. Rev. 2197 (2016).

9
In practice, courts in infringement actions often
unwittingly increase the scope of registrations by
according presumptive validity to a registration without
appreciating the subtle distinctions the Trademark Office
relied upon in registering the mark. See Callmann, supra,
§ 21:56 (listing numerous cases in which non-distinctive
element of mark dominated and was held to support a
finding of confusing similarity despite lack of conceptual
distinctiveness, including ADJUST for manually operated
shower valves, CASH for mortgage brokers, and CREAM
for hair creams); see also Rebecca Tushnet, Registering
Disagreement: Registration In Modern American
Trademark Law, 130 H arv. L. R ev. 867, 872 (2017)
(“Applicants and the PTO spend much time and effort
crafting the equivalent of an exquisitely detailed origami
crane: a precisely delineated valid mark. Rather than
considering the details, courts then ask the equivalent of
‘is this paper folded?’ by according presumptive validity to
what the mark, at first glance, appears to be. Not only is
this process a waste of resources, but it also leads courts
to misunderstand the proper scope of a registration.”).4
And ordinary businesses are often even less equipped to
grasp the limits of a registration asserted against them.
The risk of overextension means that it is important
to be cautious in determining that additional matter
sufficiently differentiates a claimed mark from a generic
or descriptive term at the core of a purported composite
4. The same problem arises in cases involving unregistered
marks, where the court’s own validity determinations often do
not translate to scope limitations that are faithfully observed at
the infringement stage. See Lemley & McKenna, Scope, supra, at
2249–56. Difficulty managing scope, then, is not an issue unique
to registration.

10
mark. Otherwise, registrants may end up with de facto
monopolies over descriptive or generic terms, despite the
theoretical limits on their registrations. The smaller the
increment of non-generic material that is incorporated
into a mark containing generic elements, the greater the
risk of its anticompetitive assertion.
There is a point at which the game is no longer worth
the candle in terms of granting protection as a mark.
As this Court explained with respect to product design
trade dress claims, because product design usually serves
purposes other than source identification, overprotection
through trademark law is very likely to harm consumers
and competition. Wal-Mart Stores, Inc. v. Samara Bros.,
Inc., 529 U.S. 205, 213–14 (2000). The same is true with
respect to overprotection of claimed marks that are
near the genericity line, which enable anticompetitive
threats by trademark claimants. Id. at 214 (“Competition
is deterred . . . not merely by successful suit but by the
plausible threat of successful suit . . . .”). Indeed, even
the plausible threat of an unsuccessful suit can have
major competition-impairing effects. See Leah Chan
Grinvald, Policing the Cease-and-Desist Letter, 49 U.S.F.
L. Rev. 409 (2015); William T. Gallagher, Trademark
and Copyright Enforcement in the Shadow of IP Law,
28 Santa Clara Computer & High Tech. L.J. 453, 487
(2012) (“[A]ggressive and bullying enforcement tactics
can work and are sometimes part of the IP owner’s
overall enforcement strategy. They are effective, in part,
because many targets do not have the resources to defend
a trademark or copyright claim on the legal merits in
court.”); Kenneth Port, Trademark Extortion: The End
of Trademark Law, 65 Wash. & Lee L. Rev. 585 (2008)

11
(reviewing published cases involving overclaiming of
rights). 5
Because of these persistent dynamics between initial
protection and the scope of enforced rights, whatever
rule this Court adopts should be attentive to the risks
of overassertion of the scope of a registration. The need
to consider the practical scope of a registration when
assessing initial validity is especially important given the
potential availability of unfair competition even without a
valid and registrable trademark, as discussed in Part II.
c.

The .com Situation Implicates Special
Concerns Relating to Competition
i.

A Top-Level Domain Performs a Practical
Function

This case has special features even by comparison
to cases involving additions to otherwise generic terms,
since the addition here (the .com top-level domain) has
uniquely functional characteristics. When used as a
domain name, booking.com has a clear non-trademark
function—it instructs a user’s computer where to go to
retrieve content. Even when booking.com is advertised,
the .com portion of the purported mark serves the purpose
of identifying it as a domain name.
5. Depending on the amount in controversy, the 2015
American Intellectual Property Law Association (AIPLA) survey
reported average trademark litigation costs through the end of
discovery of $150,000 to $900,000. AIPLA, Report of the Economic
Survey 2015, at 38–39 (2015), http://files.ctctcdn.com/e79ee274201/
b6ced6c3-d1ee-4ee7-9873-352dbe08d8fd.pdf.

12
That means the closest analogy here is not to cases
involving the addition of corporate references (such as
“inc.” or “corp.”), but to those in which the claimed mark
serves a non-trademark function.6 While that issue arises
most commonly in product configuration trade dress cases,
words and images sometimes raise analogous concerns.
See, e.g., America Online, Inc. v. AT&T Corp., 243 F.3d
812, 820 (4th Cir. 2001) (finding “You Have Mail” to be
generic and unprotectable in significant part because of
the term’s functional use to “simply inform[] subscribers,
employing common words to express their commonly used
meaning, of the ordinary fact that they have new electronic
mail in their mailboxes”).
An accurate image of a paperclip on a box of paperclips
communicates that paperclips will be in the box. Even
though the image cannot itself be used to hold paper
together, the need for freedom to compete to provide—
and to advertise—paperclips makes a non-stylized image
of a paperclip unregistrable on its own. See GeorgiaPacific Consumer Products LP v. Kimberly-Clark Corp.,
647 F.3d 723, 731–732 (7th Cir. 2011) (holding that an
accurate depiction of a functional product cannot be an
infringement); see also McCarthy, supra, § 7:77 (“An
accurate image of a functional and utilitarian product can
be regarded as the equivalent of the utilitarian shape itself.
If it is the equivalent of the shape, then the picture itself
6. Functionality and genericness are conceptually linked
and serve the same limiting purposes to protect competition.
See, e.g., W.T. Rogers, Co. v. Keene, 778 F.2d 334, 339 (7th Cir.
1985) (the concepts implement the “same principle”); William M.
Landes and Richard A. Posner, The Economics of Trademark
Law, 78 Trademark Reporter 267, 290–97 (1988) (“The concept
of functionality . . . is a parallel concept to genericness.”).

13
is ‘functional’ and should not be capable of appropriation
as a trademark for one seller of that product.”).7 Similarly,
the addition of .com communicates that a consumer will
find the seller at the corresponding URL ending in .com,
even if in some advertising the consumer cannot actually
click on “booking.com.”
ii.

The Practical Exclusivity of a Domain
Name Enhances Concerns About Scope

Importantly, for terms with top-level domains, the
non-trademark function of the top-level domain stems
from the exclusivity of the domain name system. Unless
the applicant fails to renew its domain name registration,
7. The PTO has often applied this principle. See, e.g., In re
Pingel Enterprise Inc., 46 U.S.P.Q.2d 1811, n.5, 1998 WL 320157
(T.T.A.B. 1998) (illustration of a functional fuel valve petcock for
motorcycles cannot be registered as a trademark for vehicle parts;
“for purposes of determining the issues of de jure functionality
and acquired distinctiveness, it simply makes no difference in this
appeal whether we regard the matter which applicant seeks to
register, as shown on the drawing submitted with the application,
as either the product configuration of applicant’s petcock or a ‘logo’
thereof”); In re Lighting Systems, Inc., 212 U.S.P.Q. 313, 1981 WL
40452 (T.T.A.B. 1981) (holding that a picture of a functional shape
is itself functional and unregistrable); In re Capri Macaroni Corp.,
173 U.S.P.Q. 630 (T.T.A.B. 1972) (picture of colored macaroni not
valid as a mark for macaroni: “The so-called color combination
is merely dictated by the ingredients used in the manufacture of
the vegetable macaroni. In essence what applicant is seeking to
register is the goods and that is not a trademark”); Textron Inc. v.
Pilling Chain Co., Inc., 175 U.S.P.Q. 621, 1972 WL 17819 (T.T.A.B.
1972) (illustration of functional zipper cannot be trademark for
zippers; “registration on the Principal Register . . . would give it
prima facie rights by which it could theoretically exclude opposer
and other zipper manufacturers from illustrating their products
on their goods or in their advertising”).

14
the domain name system gives it practical, indefinitely
renewable exclusivity: its website will be found at that
domain name, regardless of what happens in the world
of trademarks.
As a result of the exclusivity of the domain name
system even in the absence of trademark protection, there
is limited if any opportunity for traditional counterfeiting.
Instead, one likely consequence of recognizing trademark
rights in a generic term plus .com would be to allow
the applicant to assert anticompetitive claims against
nonidentical uses that rely on the generic meaning. In this
case, that could be domain names such as hotelbooking.com
or booking.home. Given the flexibility of the multifactor
confusion test, which assesses overall similarity of
the parties’ uses, claims based on a registration for
BOOKING.COM might even be made against advertising
that included phrases like “book your stay at home.
com.”8 Amici recognize that Respondent disclaims any
anticompetitive intent, and we do not suggest Respondent
acts in bad faith, but that general promise of restraint
is hard to enforce (and, of course, others who may take
advantage of the availability of registration for similar
generic terms combined with .com have not made the same
promise). Numerous domain names consist of generic
terms with top-level domains, from pets.com to mattress.
com to flowers.com.
8. Such a use would almost certainly qualify as descriptive
fair use. KP Permanent Make-Up, Inc. v. Lasting Impression I,
Inc., 543 U.S. 111 (2004). Still, the multifactor test for assessing
whether a descriptive use is fair all but ensures expensive, and thus
competition-deterring, litigation. See Kelly-Brown v. Winfrey,659
F. App’x 55, 58 (2d Cir. 2016); KP Permanent Make-Up, Inc. v.
Lasting Impression I, Inc., 408 F.3d 596, 605 (9th Cir. 2005); See
also William McGeveran & Mark P. McKenna, Confusion Isn’t
Everything, 89 Notre Dame L. Rev. 253, 282–84 (2013).

15
For that reason, the Fourth Circuit’s assurance that
other businesses can continue to use domain names like
carbooking.com or flightbooking.com, Pet. App. 44a, is
unduly optimistic. In America Online, for example, the
majority correctly found “You’ve Got Mail” to be generic
because of the functional manner in which it was used
to indicate that the user had received mail. America
Online, 243 F.3d at 820. The dissent in that case argued
that “You’ve Got Mail” was not generic because it was not
the best available generic term, given its grammatical
structure, id. at 824 (Luttig, J., dissenting). Notably,
however, the dissenting judge ignored the fact that the
plaintiff had actually sued AT&T for using “You Have
Mail,” exactly the generic term the dissent preferred.
Id. (Luttig, J., dissenting). Unfortunately, absent an
extremely robust practice of awarding fees to prevailing
defendants in such cases, courts can do little to prevent
claims beyond the proper scope of a registration. For this
reason, the assessment of genericness should explicitly
take into account the risks of aggressively asserted scope.
II. Whatever Rule this Court Adopts Should Not Rely
on the De Facto Secondary Meaning Possessed by
Domain Names
a.

The General Rule That Distinguishes De
Facto Secondary Meaning from De Jure
Secondary Meaning is Important to the
Overall Functioning of the Trademark System.

Whatever the Court’s conclusion with respect to
Booking.com, the Court should be very clear that the
uniqueness of a top-level domain name cannot in itself
generate protectable secondary meaning. Domain

16
names are, given the current operation of the internet,
unique, so it would not be surprising if they developed
de facto secondar y meaning. The address “160 0
Pennsylvania Avenue” is similarly associated with only
one governmental entity. But an address—physical or
virtual—is not the same thing as a trademark. In Kellogg,
the fact that National Biscuit Company (Nabisco) had a
patent on the shape of shredded wheat biscuits meant
that it had the exclusive right to sell biscuits in that shape
during the patent period. Kellogg, 305 U.S. at 117. When
the patent expired, Nabisco had been the sole producer
of pillow-shaped biscuits for many years. The public had,
correctly and entirely unsurprisingly, come to expect that
pillow-shaped biscuits came from Nabisco. Id. at 118–19.
Despite those consumer expectations, this Court held
that Nabisco did not own trademark rights either in the
phrase “shredded wheat” or in the shape of the biscuits
themselves. Id. at 121. As this Court explained, consumers’
association of a generic term with a particular producer
that results simply from the fact that the consumers were
exposed to advertising of that term by that producer is
not meaning that the trademark system should be twisted
to protect. Id. at 120.
The distinction between de facto and de jure
secondary meaning has many benefits for the overall
trademark system. It protects competition and effective
communication. Diester, 289 F.2d at 504 (“The true
basis of such holdings is not that they cannot or do
not indicate source to the purchasing public but that
there is an overriding public policy of preventing their
monopolization, of preserving the public right to copy.”).
Denying trademark protection for generic terms also
encourages market participants to choose and promote

17
trademarks that are more distinctive, so that they will
have something protectable when competition begins. In
Kellogg, for example, that was the brand name National
Biscuit (quickly abbreviated to Nabisco). And denying
trademark protection to generic terms even in the
presence of de facto secondary meaning recognizes that,
as a practical matter, some consumer expectations are
extremely thin: even when consumers make a de facto
association between a generic term and a particular
producer, that does not mean that they expect any product
with that name to come from the same producer, especially
once they start to see other producers providing the
product. Thus, granting trademark rights in a generic
term in itself is not necessary to protect consumers.
Parties cannot claim trademark rights in generic
terms even when their de facto secondary meaning results
from resounding success in the face of competition. As
the Court of Customs and Patent Appeals explained with
respect to the generic term “sudsy ammonia,” success in
sales resulting from greater advertising and production
than competitors was “no ground for impairing the rights
of those others, though they be small, to be free from
possible restraint in the use of the common descriptive
names of their products.” Roselux Chemical Co. v. Parsons
Ammonia Co.,299 F.2d 855, 862–63 (C.C.P.A. 1962);9 see
also Abercrombie & Fitch Co. v. Hunting World, Inc., 537
F.2d 4, 9 (2d Cir. 1976) (“No matter how much money and
effort the user of a generic term has poured into promoting
the sale of its merchandise and what success it has
9. What courts once called “common descriptive names”
are, in modern terms, “generic.” See, e.g., Real Foods Pty Ltd. v.
Frito-Lay North America, Inc., 906 F.3d 965, 972 (Fed. Cir. 2018).

18
achieved in securing public identification, it cannot deprive
competing manufacturers of the product of the right to
call an article by its name.”); Weiss Noodle Co. v. Golden
Cracknel & Specialty Co., 290 F.2d 845, 848 (C.C.P.A.
1961) (“[M]erchants act at their peril in attempting, by
advertising, to convert common names, which belong to
the public, to their own exclusive use. Even though they
succeed in the creation of de facto secondary meaning,
due to lack of competition or other happenstance, the law
respecting registration will not give it any effect.”).
b.

The Difference Between De Facto Secondary
Meaning and De Jure Secondary Meaning
Can Be Especially Difficult to Evaluate
Using Surveys, Including the One Offered by
Booking.com.

Consumers’ correct understanding of a domain name’s
exclusivity may lead them to conflate that exclusivity with
true trademark meaning. As a result, surveys might seem
to suggest secondary meaning in a .com that is really de
facto secondary meaning and not protectable trademark
meaning. Thus, courts in domain name cases need to
look at surveys very carefully to ensure they are proving
what their proponents say they are proving. For example,
Booking.com’s survey trained survey respondents about
the difference between trademarks and generic terms
using a .com domain name (STAPLES.com) as an example
of a valid trademark rather than the well-known-onits-own Staples name. See Pet. App. 88a. This training
suggested to respondents that heavily advertised .com
names could readily be trademarks and may well have
distorted the survey’s results. Cf. Sheetz of Delaware, Inc.
v. Doctors Associates Inc., 108 U.S.P.Q.2d 1341 (T.T.A.B.

19
2013) (holding that a survey with “ambiguous” training
examples wrongly suggested to respondents that “heavily
advertised” terms straddling the line between generic
and descriptive were trademarks; such a survey was not
entitled to much weight).
Although the survey used an unknown .com example
(OFFICESUPPLIES.COM) as a training example of
a generic term, Pet. App. 88a,10 it did not fully grapple
with the general public understanding that any given
string that ends in .com will always resolve to a single
website. Notably, despite its attempt to train respondents
and despite the use of screener questions that required
respondents to correctly categorize the non-.com terms
KELLOGG and CEREAL in order for their other answers
to be counted, the survey nonetheless induced 33% of those
respondents to identify the generic WASHINGMACHINE.
COM as a brand name.11 Over 6% more were not sure if it
was a brand name or generic. Pet. App. 91a. The survey
produced that result even though 100% of the same
respondents recognized SUPERMARKET as generic
(99.5% recognized SPORTING GOODS as generic),
indicating that they grasped the general distinction. Id.
While there is a significant gap between the 33%
who deemed WASHINGMACHINE.COM to be a brand
name and the 74.8% who deemed BOOKING.COM to be a
brand name, the fact that the survey induced one-third of
respondents to identify a concededly generic domain name
10. Officesupplies.com does not appear to have an independent
commercial existence, although that domain name currently
redirects to officesupply.com.
11. Washingmachine.com presently redirects to Wayfair.com.

20
as a brand name indicates the serious difficulties inherent
in trying to use a survey to distinguish between de facto
secondary meaning based on domain name exclusivity and
trademark meaning. See Miller Brewing Co. v. Joseph
Schlitz Brewing Co., 605 F.2d 990, 995 (7th Cir. 1979)
(because “light” was “a familiar, basic word in the English
vocabulary,” its trademark status could not be evidenced
by “associations the word brings to consumers as a result
of advertising”); cf. Richard Craswell, “Compared to
What?”: The Use of Control Ads in Deceptive Advertising
Litigation, 65 A ntitrust L.J. 757, 771 (1997) (noting that,
where control stimuli produce very high objectively wrong
responses, there may be underlying problems with the
survey’s choices); Kate Spade LLC v. Saturdays Surf
LLC, 950 F. Supp. 2d 639, 647 (S.D.N.Y. 2013) (control
group confusion of over 34% raised “serious” questions
about validity of infringement survey).
Relatedly, the Court should take into account that
the relevant percentage for BOOKING.COM is its net
recognition, rather than its gross 74.8% recognition, which
includes some amount of “noise.” See, e.g., McCarthy
§32:187 (“[A] survey control is always necessary to pin
down causation: whether survey responses in fact reflect
the thing the survey is designed to prove, whether it
is secondary meaning or that the accused mark causes
confusion or some other issue.”) (citing Shari S. Diamond,
Control Foundations: Rationales and Approaches, in
Trademark and Deceptive Advertising Surveys 202
(Shari S. Diamond & Jerre S wann eds ., 2012)). The
best estimate of that noise, given the survey, is 33%
(taking WASHINGMACHINE.COM as the best control
because it is relevantly similar to BOOKING.COM but

21
concededly not protectable).12 Netting out the “noise,” the
survey would estimate of 41.8% recognition—a number
meaningfully below the generally accepted 50% or more
needed to demonstrate “primary significance.” McCarthy
§12:6 (“The result of the primary significance rule is that
majority usage controls.”).
III. Unfair Competition Remains an Alternative to
Trademark Protection Where De Facto Secondary
Meaning Exists
Booking.com’s best case for some kind of relief
involves not ordinary trademark infringement (because
it to disclaims a wide scope for its rights), but deliberate
deception.13 Fortunately, to the extent the Court is
12. See Shari Seidman Diamond, Reference Guide on Survey
Research, in Reference Manual On Scientific Evidence at 229, 257
(Federal Judicial Center 2d ed. 2000) (a control should share “as
many characteristics with the experimental stimulus as possible,
with the key exception of the characteristic whose influence is
being assessed”).
13. For example, bad actors might use homographs to fool
internet users into thinking that they are visiting a known website
by registering a domain name using non-Latin characters that
emulate the Latin characters. See IDN Homograph Attack,
Wikipedia, https://en.wikipedia.org/wiki/IDN_homograph_attack.
Although browsers have defenses against this kind of attack
and although ICANN, which manages the domain name system,
has attempted to put measures in place to prevent registrations
of domain names of this type, those measures are not perfect.
See id. Thus, it is theoretically possible that a bad actor could
register a domain name that looked, to a human, like bοоkinɡ.ϲom.
See Homoglyph Attack Generator, Irongeek.com, https://www.
irongeek.com/homoglyph-attack-generator.php?encoded=xn-bkin-37b01soza.xn--om-vfc&decode=%3C%3C+Decode (showing

22
concerned that bad actors could use de facto secondary
meaning to mislead consumers, unfair competition
remedies are available to guard against truly deceptive
uses of generic terms. Unfair competition is a limited
residual doctrine that has long provided claims against
those who, by means other than use of a trademark,
attempt to pass of their goods as though they were
the plaintiff’s. See Mark P. McKenna, Property and
Equity in Trademark Law, 23 M arq. Intell. Prop. L.
Rev. (forthcoming 2020) (available at https://ssrn.com/
abstract=3502613).
These unfair competition principles have a very
long pedigree at common law. Modern courts frequently
describe § 43(a) of the Lanham Act, 15 U.S.C. §1125(a), as a
partial codification of unfair competition and as the source
of these rules. See Blinded Veterans, 827 F.2d at 1046. The
relationship between common law unfair competition and
§ 43(a) is a complicated one beyond the scope of this case. See
McKenna, Property and Equity in Trademark Law, supra.
Most saliently, not all applications of § 43(a) are subject to
the limits that apply to generic terms. Unregistered (but
unambiguously protectable) trademarks, for example, are
enforced under § 43(a) on substantially the same terms as
registered marks. Two Pesos, Inc. v. Taco Cabana, Inc.,
505 U.S. 763, 768 (1992). But where unfair competition is
used as a residual claim in the context of generic terms or
functional matter, these limitations apply.

the code used to produce one such URL, using several non-Latin
characters that are difficult to distinguish visually from Latin
characters). The attacker could then attempt to capture users’
information or install programs on their computers if they clicked
on this URL in an email.

23
Unfair competition is more limited than trademark
rights in two critical respects.14 First, unfair competition
focuses only on true risks of passing off—deceiving
consumers into believing that one’s goods in fact are
those of another. Liquid Controls Corp. v. Liquid Control
Corp., 802 F.2d 934, 940 (explaining that “passing off”
occurs when consumers think they are dealing with
one party but are really dealing with another); see also
Mark P. McKenna, The Normative Foundations of
Trademark Law, 82 Notre Dame L. Rev. 1839, 1860–62
(2007). A far broader and more amorphous range of
“confusion” is actionable under modern trademark law,
which allows trademark owners to sue, and even win, on
the theory that consumers might think that the parties
had some sort of relationship, even though consumers
understand with whom they are dealing. See Glynn S.
Lunney, Jr., Trademark’s Judicial De-Evolution: Why
Courts Get Trademark Cases Wrong Repeatedly, 106
Cal. L. Rev. 1195, 1208–1213 (2018); Mark A. Lemley &
Mark McKenna, Irrelevant Confusion, 62 Stan. L. Rev.
14 . T here a re d i f ferences bet ween reg ist ered a nd
unregistered marks—for example, registration gives access to
some specific benefits, such as the ability to exclude counterfeit
goods through Customs and Border Protection. See 15 U.S.C.
§§ 1124, 1125(b) (2012). Here, however, we focus on the difference
between unfair competition as such and protection for trademarks,
whether registered or unregistered. Some private agreements
also look to national law; for example, the Uniform Domain Name
Dispute Resolution (UDRP) process requires complainants to
establish the existence of trademark protection in some country,
whether via registration or the common law, in order to proceed.
See WIPO Guide to the Uniform Domain Name Dispute
Resolution Policy (UDRP), World I ntellectual P ropert y
Organization, https://www.wipo.int/amc/en/domains/guide/. But
this Court’s decision should not turn on the availability or lack
thereof of UDRP arbitration.

24
413, 422–26 (2010). Unfair competition is therefore much
narrower than modern trademark law and thus provides
competitors with much greater certainty in their ability
to use generic terms as part of their advertising and
promotion than a multifactor confusion test or multifactor
descriptive fair use defense.
Second, unfair competition remedies in the absence
of trademark rights are very different than trademark
remedies. Specifically, in no case can the remedy consist
of an injunction against use of the generic term itself. The
remedies are limited to a requirement of labeling or other
means of distinguishing the uses. See, e.g., Kellogg, 305 U.S.
at 122 (contemplating the possibility of unfair competition
remedies focused on labeling or packaging rather than on
the words “shredded wheat,” but concluding that Kellogg
had sufficiently distinguished its product); Singer Mfg. Co.
v. June Mfg. Co., 163 U.S. 169, 203–04 (1896). With these
limitations, competition and consumer protection can be
balanced. Belmora, LLC. v. Bayer Consumer Care AG,
819 F.3d 697, 713 (4th Cir. 2016) (explaining that Belmora
could be required to distinguish its Flanax product from
Bayer’s Mexican Flanax product despite Bayer’s lack of
trademark rights in the United States); Home Builders
Ass’n of Greater St. Louis v. L & L Exhibition Mgmt. Inc.,
226 F.3d 944, 950 (8th Cir. 2000) (“A generic trademark or
functional trade dress is not protected from copying. But
if it has acquired secondary meaning, § 43(a) relief may
be appropriate to require the copier to take reasonable
measures to eliminate public confusion as to the source
of its competing product or service.”); see also Caitlin P.
Canahai & Mark P. McKenna, The Case Against Product
Configuration Trade Dress at 13 (available at https://ssrn.
com/abstract=3336366) (describing the role of unfair
competition remedies in the product configuration context,

25
“which would police confusing labeling or packaging
and ensure that sellers adequately distinguished their
competing goods by use of other indicators, all while
allowing copying of the product design itself”).
Critically, where unfair competition/passing off
principles operate, it is not enough to allege that the
defendant used a generic term and that such use caused
confusion. Something more is required, consistent with
the rule that the generic term itself must remain free for
all to use. Blinded Veterans, 872 F.2d at 1046 (holding
that evidence of de facto secondary meaning and of use
of a generic term was insufficient to establish passing off
claim where plaintiff failed to point to “specific actions”
by defendant which increased risk of confusion); Liquid
Controls, 802 F.2d at 939–40 (“[I]f a term [is] generic, use
of that term alone [cannot] give rise to an unfair competition
claim, even if many people [have] come to associate the
term with the plaintiff,” but courts may act to require a
defendant “to adequately identify itself as the source”);
BellSouth Corp. v. White Directory Publishers, Inc., 42
F. Supp. 2d 598, 614 (M.D.N.C. 1999) (mere use of generic
symbol cannot be the basis for liability in the absence of
additional evidence of “affirmative steps which increased
the likelihood of confusion”); Miller Brewing, 605 F.2d at
997–98 (LITE for beer was generic, but Miller could state
a claim for unfair competition against another light beer
producer if it could allege confusion arising from coloring
and styling of labels, “advertising calculated to lead to
confusion,” or “any cause except [defendant’s] use of the
word light in [its] product name”); McCarthy, supra, § 12:48
(“In the author’s opinion, in order to obtain some form of
relief on a ‘passing off’ claim, the user of a generic term
must prove some false or confusing usage by the newcomer
above and beyond mere use of the generic name.”).

26
Using unfair competition, then, a court would not
enjoin mere use of the term “booking” as part of a domain
name or other formulations like booking.org. But it would
readily be able to enjoin defendants who deceptively
emulate booking.com using non-Latin fonts or make other
deceptive uses of booking.com in advertising, as well as
just as it could enjoin uses of confusingly similar layouts,
color schemes, or logos on websites. Courts could also
require additional matter to allow reasonable consumers
to distinguish those other sites, if that matters were
not already present. See Kellogg, 305 U.S. at 122 (“The
obligation resting upon [defendant] Kellogg Company
is not to insure that every purchaser will know it to be
the maker but to use every reasonable means to prevent
confusion . . . .”); Blinded Veterans, 872 F.2d at 1043
(“[T]he subsequent competitor cannot be prevented from
using the generic term to denote itself or its product,
but it may be enjoined from passing itself or its product
off as the first organization or its product. Thus, a court
may require the competitor to take whatever steps are
necessary to distinguish itself or its product from the first
organization or its product.”).

27
Conclusion
In resolving this dispute, the Court should set a
standard that takes into account the effects of registration
on the overall trademark system, including the potential
scope of any registration, and it should keep in mind the
availability of unfair competition remedies under §43(a) of
the Lanham Act as a backstop when generic terms have
de facto secondary meaning.
Respectfully submitted,
Rebecca Tushnet
Counsel of Record
Harvard Law School
1575 Massachusetts Avenue
Cambridge, MA 02138
(703) 593-6759
rtushnet@law.harvard.edu
Counsel for Amici Curiae

APPENDIX

1a
Appendix
A
APPENDIX
— SIGNATORIES
Stacey L. Dogan
Boston University School of Law
Christine Haight Farley
American University Washington College of Law
Deborah R. Gerhardt
UNC School of Law
Michael Grynberg
DePaul College of Law
Glynn S. Lunney, Jr.
Texas A&M University School of Law
Mark P. McKenna
Notre Dame Law School
Rebecca Tushnet
Harvard Law School

